<html>
<title> - TWELFTH REGULAR MEETING OF COP12 OF CITES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
               TWELFTH REGULAR MEETING OF COP12 OF CITES
=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           February 25, 2003

                               __________

                            Serial No. 108-1

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov









                       U. S. GOVERNMENT PRINTING OFFICE
85-178                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel




                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Rob Bishop, Utah                     Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio


                                 ------                                




                            C O N T E N T S



                              ----------                              
                                                                   Page

Hearing held on February 25, 2003................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     2
        Prepared statement of....................................     3
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     1
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     5
        Prepared statement of....................................     6
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Lent, Dr. Rebecca, Deputy Assistant Administrator for 
      Fisheries, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    24
        Prepared statement of....................................    25
    Manson, Hon. Craig, Assistant Secretary for Fish and Wildlife 
      and Parks, U.S. Department of the Interior.................     6
        Prepared statement of....................................     9


 OVERSIGHT HEARING ON THE TWELFTH REGULAR MEETING OF THE CONFERENCE OF 
    THE PARTIES (COP12) OF THE CONVENTION ON INTERNATIONAL TRADE IN 
          ENDANGERED SPECIES OF WILD FAUNA AND FLORA (CITES).

                              ----------                              


                      Thursday, February 25, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Bishop, Pombo, Pallone, 
Faleomavaega and Bordallo.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good afternoon, everyone. The Subcommittee 
on Fisheries Conservation, Wildlife and Oceans will come to 
order. We are here today to hear testimony from Judge Manson 
and Dr. Lent on the most recent CITES meeting in Chile, 
Santiago. There are a number of issues that we are interested 
in, a number that we are concerned about. One of the questions 
among many that we will ask is through your meetings, 
experiences, is CITES better now than it was its first meeting? 
Do you see an ongoing relationship between the Nation members 
and an understanding toward the sustainable and the nature of 
restoring the natural prodigious bounty of the Earth's 
resources? Is there less disagreement because there is better 
science, those kinds of questions.
    Thank you for attending here this afternoon. We look 
forward to your testimony. Mr. Pallone will be here in a few 
minutes.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good afternoon, I am pleased to convene today's hearing which will 
focus on the final results of the twelfth regular meeting of the 
Conference of the Parties to the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora, commonly referred to as 
CITES.
    CITES is unique as the only international organization whose 
primary focus is the protection of plant and animal species from 
unregulated international trade. CITES parties meet every two years and 
the twelfth regular meeting of Conference of the Parties was held last 
year in Santiago, Chile from November 3rd through November 15th.
    I welcome our two witnesses, the Honorable Judge Craig Manson, 
Assistant Secretary for Fish and Wildlife and Parks at the Department 
of the Interior, who attended the CITES conference as the head of the 
U.S. delegation. In addition, Dr. Rebecca Lent the Deputy Assistant 
Administrator for Fisheries will discuss issues under the purview of 
the Department of Commerce that were raised at the CITES meeting.
    I look forward to this important discussion and I recognize the 
ranking Democrat, the Honorable Frank Pallone of New Jersey, for any 
opening comments he may have in this matter.
                                 ______
                                 
    Mr. Gilchrest. At this point I will recognize Mr. 
Faleomavaega.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you for 
your leadership in holding this oversight hearing today on the 
12th regular meeting of the Conference of Parties on 
international trade of endangered species.
    Mr. Chairman, since the establishment of CITES by the World 
Conservation Union in 1975, the number of voluntary members has 
doubled from the 80 original signing countries to over 160 
participating parties today. As one of the largest of 
conservation agreements in existence, the convention has 
undoubtedly contributed to the fact that a not a single species 
protected by CITES has gone extinct as a result of trade since 
the convention went into effect nearly 30 years ago.
    CITES has proven itself as a worthwhile endeavor, and I 
believe that most organizations and citizens concerned with 
protection and conservation of the world's natural resources 
support the establishment and continuation of such a global 
conservation agreement. However, history has shown that all 
things change through time, and the exploitation of animals and 
plants and their products has proven to be a dynamic process. 
This is further confounded by the fact that natural states of 
populations are inherently variable. In addition, we continue 
to amass new scientific information on the biological state of 
our exploited natural resources.
    Mr. Chairman, clearly the backbone of any effective 
conservation program is the criteria used for listing species 
in need of protection. As part of the oversight process, it is 
worthwhile to ensure that the current criteria used for the 
listing of species is consistent with current scientific 
evidence and conservation biology theory and is subject to 
ongoing review processes. In this way, Mr. Chairman, while 
looking through the current lists of protected species, I was 
somewhat struck by the relative proportions of marine versus 
terrestrial animals included in the CITES appendices, where 
terrestrial plants and animals far outnumber marine ones. As a 
representative who is from a district whose borders are 
surrounded by ocean and whose economic resources depend largely 
on the proper management of marine resources, I would like to 
ensure that these numbers accurately reflect the true status of 
marine populations.
    I would like to personally welcome Judge Manson, the 
Assistant Secretary for Fish and Wildlife and Parks, and Dr. 
Rebecca Lent, the Deputy Assistant Administrator for Fisheries 
at NOAA. Thank you for appearing today, and I look forward to 
hearing from your testimonies.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    [The prepared statement of Mr. Faleomavaega follows:]

    Statement of The Honorable Eni F.H. Faleomavaega, a Delegate to 
                      Congress from American Samoa

    Mr. Chairman, thank you for your leadership in holding this 
oversight hearing today on the 12th regular meeting of the Conference 
of Parties on International Trade of Endangered Species.
    Since the establishment of CITES by the World Conservation Union in 
1975, the number of voluntary members has doubled from the 80 original 
signing countries, to over 160 participating parties today. As one of 
the largest of conservation agreements in existence, the convention has 
undoubtedly contributed to the fact that not a single species protected 
by CITES has gone extinct as a result of trade since the convention 
went into effect nearly 30 years ago.
    CITES has proven itself as a worthwhile endeavor, and I believe 
that most organizations and citizens concerned with protection and 
conservation of the world's natural resources support the establishment 
and continuation of such a global conservation agreement. However, 
history has shown that all things change through time, and the 
exploitation of animals and plants and their products has proven to be 
a dynamic process. This is further confounded by the fact that the 
natural states of populations are inherently variable. In addition, we 
continue to amass new scientific information on the biological state of 
our exploited natural resources.
    Clearly, the backbone of any effective conservation program is the 
criteria used for listing species in need of protection. Mr. Chairman, 
as part of the oversight process, it is worthwhile to ensure that the 
current criteria used for the listing of species is consistent with 
current scientific evidence and conservation biology theory, and is 
subject to ongoing review processes.
    In this vain, while looking through the current lists of protected 
species, I was struck by the relative proportions of marine versus 
terrestrial animals including in the CITES appendices, where 
terrestrial plants and animals far outnumber marine ones. As a 
representative of a district whose borders are surrounded by ocean, and 
whose economic resources depend largely on the proper management marine 
resources, I would like to ensure that these numbers accurately reflect 
the true states of marine populations. Judge Craig Manson, Assistant 
Secretary for Fish and Wildlife and Parks, and Dr. Rebecca Lent, Deputy 
Assistant Administrator for Fisheries of NOAA, I thank you for 
appearing here today. I look forward to your testimonies, and hope you 
can shed light on some of these concerns.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Gilchrest. I now recognize the Chairman of the full 
Committee Mr. Pombo, who has been for a number of years very 
interested in these issues. Mr. Pombo.

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Chairman, and good afternoon. I 
am pleased that we are having this hearing today and would like 
to warmly welcome my good friend Judge Manson.
    CITES has the distinction of being the only multinational 
body to govern the international trade in animal and plant 
species. As such, CITES plays an important role in the 
conservation of plant and animal species across the globe.
    I have had the opportunity to closely witness the CITES 
process by serving as a member of the U.S. delegation to the 
last three CITES conferences. Being a member of the delegation 
and attending these meetings, I have developed a unique 
perspective on the complexities of the CITES negotiations. I 
have witnessed firsthand how the various delegations struggle 
to ensure equitable solutions on a whole range of controversial 
issues. While the process is far from perfect, every nation 
works hard to develop the best management solution for its 
species while coordinating with other affected range states in 
developing the appropriate protections for literally hundreds 
of CITES species.
    My interest in CITES has come from concern with the growing 
trend by protectionist groups and like-minded countries to use 
CITES as a mechanism to prevent the use of plant or animal 
species by listing them in the CITES appendices without the 
necessary scientific evidence. The primary role of CITES is to 
help sovereign nations manage their endangered species and 
recover those species to sustainable levels. CITES also plays 
an important role in educating the world community to the value 
of wildlife. While CITES can be used as a tool to recover 
species, it should not be used as a restrictive mechanism to 
limit or stop trade based on emotional arguments. If nations 
use science to develop management decisions and, when needed, 
use CITES as an additional conservation measure, then CITES is 
being used as it was designed.
    Mr. Chairman, the dynamics of the CITES conference are 
quite interesting. Some have likened it to Congress, although 
not in a complimentary way. The process is viewed as too slow, 
with endless debate and little action. They may liken CITES to 
Congress, but I would say that reference is more reflective of 
the deliberative body on the other side of the Capitol complex.
    On that note, Mr. Chairman, I look forward to today's 
hearing and thank our witnesses for being here with us. In 
particular I want to again compliment Secretary Manson for his 
truly outstanding and superb job as head of the U.S. CITES 
delegation this year.
    Mr. Gilchrest. Thank you, Mr. Pombo.
    [The prepared statement of Mr. Pombo follows:]

   Statement of The Honorable Richard Pombo, Chairman, Committee on 
                               Resources

    Good afternoon, I am pleased that we are having this hearing today 
and would like to warmly welcome my good friend the Assistant Secretary 
of the Interior, Judge Craig Manson.
    CITES has the distinction of being the only multinational body to 
govern the international trade in animal and plant species. As such, 
CITES plays an important role in the conservation of plant and animal 
species across the globe.
    I have had the opportunity to closely witness the CITES process by 
serving as a member of the U.S. delegation to the last three CITES 
Conferences. Being a member of the delegation and attending these 
meetings, I have developed a unique perspective on the complexities of 
CITES negotiations. I have witnessed first hand how the various 
delegations struggle to ensure equitable solutions on a whole range of 
controversial issues. While the process is far from perfect, every 
nation works hard to develop the best management solution for its 
species, while coordinating with other effected range states and 
developing the appropriate protections for literally hundreds of CITES 
species.
    My interest in CITES has come from concern with the growing trend 
by protectionist groups and ``like-minded'' countries to use CITES as a 
mechanism to prevent the use of plant or animal species by listing them 
in the CITES Appendices, without the necessary scientific evidence. The 
primary role of CITES is to help sovereign nations manage their 
endangered species and recover those species to sustainable levels. 
CITES also plays an important role in educating the world community to 
the value of wildlife.
    While CITES can be used as a tool to recover species, it should not 
be used as a restrictive mechanism to limit or stop trade based on 
emotional arguments. If nations use science to develop management 
decisions and when needed use CITES as an additional conservation 
measure, then CITES is being used as it was designed.
    Mr. Chairman, the dynamics of the CITES Conferences are quite 
interesting. Some have likened it to Congress, although not in a 
complementary way. The process is viewed as too slow, with endless 
debate and little action. They may liken CITES to Congress, but I would 
say that reference is more reflective of the deliberative body on the 
other side of the Capitol complex.
    On that note, Mr. Chairman, I look forward to today's hearing and 
thank our witnesses for being here with us. In particular, I want to 
again compliment Secretary Manson for his truly outstanding and superb 
job as head of the U.S. CITES delegation.
                                 ______
                                 
    Mr. Gilchrest. Mr. Pallone, any opening statement?

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to 
first congratulate you again on your return as Chairman of what 
I consider a very important Subcommittee, and want to say we 
all look forward to working with you and the Republican 
Members. Since its inception in 1975, CITES has played a 
crucial role in regulating the international trade of 
endangered species valued at billions of dollars per year in 
its work to protect plant and animal species from exploitation 
while safeguarding the interest of range states in sustainable 
import and export of key natural resources.
    Today CITES boasts 160 member countries and is a powerful 
international regulatory tool providing varying degrees of 
protection to more than 30,000 species of animals and plants. 
This past year the 12th Conference of the Parties met and 
tackled more than 100 proposals for amendments and resolutions 
that ranged in scope from revised and new listings of various 
species of invertebrates, birds, fish and plants to key 
administrative matters.
    And I applaud the work of representatives from of the 
Federal Government who performed tirelessly at the meeting in 
Santiago, Chile. Their efforts resulted in several noteworthy 
achievements. U.S. Proposals were passed to protect all species 
of seahorses. Also I am pleased that after some early 
ambivalence at COP12, the Administration decided to continue 
U.S. Support of the transfer of bigleaf mahogany to Appendix II 
protection. However, several high-profile issues that were 
debated at the meetings, such as an approved proposal that will 
allow a limited renewal in the legal trade of African ivory, 
have raised considerable controversy. U.S. support of a one-
time ivory sale from the countries of Botswana, Namibia and 
South Africa marks a dangerous approach that could ultimately 
back illegal ivory sales. Just yesterday wildlife authorities 
in Kenya made their largest seizure of illegal ivory in the 
past 3 years. Clearly poaching remains a threat to African 
elephant populations, and without intensive regulatory efforts, 
I feel that ivory derived from poaching could easily work its 
way back into the legally taken stockpile.
    It is with this type of concern in mind that we welcome the 
testimony of Judge Craig Manson from the U.S. Fish and Wildlife 
Service and Dr. Rebecca Lent from NOAA Fisheries. And I look 
forward to learning from you about these issues and hearing 
about future plans for the upcoming standing committee meeting 
that takes place, I guess, in the next couple months in Geneva. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Thank you, Mr. Chairman. It is my pleasure to be here this 
afternoon. Allow me to first congratulate you on your return as 
Chairman of this important Subcommittee. I look forward to working with 
you.
    Since its inception in 1975, the Convention on International Trade 
of Endangered Species of Wild Fauna and Flora (CITES) has played a 
crucial role in regulating the international trade of endangered 
species, valued at billions of dollars per year. CITES has worked to 
protect plant and animal species from exploitation, while safeguarding 
the interests of range states in sustainable import and export of key 
natural resources.
    Today, CITES boasts 160 member countries and is a powerful 
international regulatory tool, providing varying degrees of protection 
to more than 30,000 species of animals and plants.
    This past year, the 12th Conference of the Parties met and tackled 
more than 100 proposals for amendments and resolutions that ranged in 
scope from revised and new listings of various species of 
invertebrates, birds, fish, and plants to key administrative matters. I 
applaud the work of representatives from the Federal Government who 
performed tirelessly at the meeting in Santiago, Chile.
    Their efforts resulted in several noteworthy achievements. U.S. 
proposals were passed to protect all species of seahorses. Also, I am 
pleased that after some early ambivalence at COP 12, the Administration 
decided to continue U.S. support of the transfer of bigleaf mahogany to 
Appendix II protection.
    However, several high profile issues that were debated at the 
meeting--such as an approved proposal that will allow a limited renewal 
in the legal trade of African ivory--have raised considerable 
controversy. U.S. support of a one-time ivory sale from the countries 
of Botswana, Namibia, and South Africa marks a dangerous approach that 
could ultimately back illegal ivory sales. Just yesterday, wildlife 
authorities in Kenya made their largest seizure of illegal ivory in the 
past three years. Clearly poaching remains a threat to African elephant 
populations. Without intensive regulatory efforts, I fear that ivory 
derived from poaching could easily work its way into the legally taken 
stockpile.
    It is with this type of concern in mind that we welcome the 
testimony of Judge Craig Manson, from U.S. Fish and Wildlife and Dr. 
Rebecca Lent from NOAA Fisheries. We look forward to learning from you 
about these issues and to hearing about future plans for the upcoming 
Standing Committee meeting in Geneva, Switzerland. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Anyone else have an opening statement?
    Judge, welcome again to our hearing, and we look forward to 
your testimony. You may begin, sir.

  STATEMENT OF CRAIG MANSON, ASSISTANT SECRETARY FOR FISH AND 
      WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Manson.  Thank you very much, Mr. Chairman. I 
appreciate this opportunity to report to you and the members of 
the Committee on the U.S. participation in the 12th meeting of 
the Conference of the Parties as you noted held in Santiago 
last November.
    CITES continues to serve as an effective and dynamic tool 
for protecting species affected by trade. At the meeting the 
parties continued their efforts to strike the balance between 
the need to protect species and the desire to reward countries 
that have demonstrated a commitment to the sustainable use of 
wildlife resources. As the lead agency under CITES for the 
United States, the Department of the Interior, through the Fish 
and Wildlife Service, worked closely with Federal partners and 
non-Federal partners to develop U.S. proposals and prepare for 
the meeting, and I must say that rarely have I seen a level of 
cooperation between Federal agencies such as I saw in the 
preparation and the execution of the CITES meeting.
    Representatives of the other Federal agencies were active 
in negotiations and consultations with other parties' 
delegations, as well as in the U.S. strategy development. Our 
close relationship with the states on the CITES issues 
continued at the meeting with a representative of the states 
serving as a member of the delegation. In addition, 
nongovernmental organizations based in the United States 
provided valuable input through our public consultation process 
for the development of U.S. proposals and positions, and 
throughout the meeting the U.S. delegation continued to build 
on successes and good relationships developed over the last 
several years. We achieved our goals on nearly every issue.
    As head of the U.S. delegation, I worked actively with my 
counterparts from other countries on elephants, mahogany, 
whales and other issues of importance to the U.S. U.S. 
leadership was recognized and are serving on and sometimes 
chairing various working groups formed during the meeting.
    At the meeting the parties dealt with 68 agenda items and 
60 species proposals. I want to highlight a few of those 
decisions for you today. A total of six proposals were 
submitted for consideration at the meeting for African 
elephants. While recognizing the management successes of some 
of the range states, we were concerned about the regular ivory 
trade, and we negotiated with Southern African countries to 
amend their proposals to allow a one-time sale of ivory. 
Botswana, Namibia and South Africa will be permitted to conduct 
a one-time sale of registered government stockpiles of ivory 
not earlier than May 2004.
    We went to the meeting officially undecided on a proposal 
to include bigleaf mahogany in Appendix II, and we took that 
position quite deliberately so that we were in a position to 
facilitate a dialog between the range countries. We used that 
undecided position to encourage all of the parties to come to a 
consensus. We spent many hours with the range state countries 
attempting that consensus, but no broad consensus was reached. 
We then voted for the listing proposal.
    As a major importer of bigleaf mahogany, the United States 
is committed to making that listing work. The Fish and Wildlife 
Service has coordinated an interagency effort to put into place 
an administrative plan on implementation for the listing, which 
comes into effect on November 14, 2003.
    Japan submitted two proposals to downlist virtually all the 
Northern Hemisphere populations of minke whales and the western 
North Pacific population of Bryde's whales. We are pleased that 
the member nations of CITES did not approve those proposals. We 
do not believe that the proposals qualify for downlisting to 
Appendix II or that it would be appropriate to resume 
commercial trade in whales at this time. We believe it is 
inappropriate to consider downlisting those two species under 
CITES until the International Whaling Commission completes its 
revised management scheme for those species.
    With the support of our State and territorial fisheries 
agencies, the Fish and Wildlife Service and NOAA Fisheries 
jointly developed a proposal to list all 32 species of 
seahorses in Appendix II. The proposal was adopted by 
consensus, but with our suggested delayed implementation date 
of May 2004. During the 18-month delay, we plan to work with 
our State partners and foreign governments to ensure that legal 
sustainable seahorse trade continues smoothly under the 
Appendix II listing.
    With strong support from other countries in our Pacific 
territories, we introduced a proposal to list the humphead 
wrasse under Appendix II. Although that proposal failed with a 
simple majority, we feel this voting pattern shows broad 
interest in this issue. We plan to consult with other Pacific 
countries and pursue ways to keep the live reef food trade and 
humphead wrasse at the forefront of CITES discussions.
    For the Patagonian toothfish, also known as Chilean sea 
bass, the United States helped worked out an agreement between 
Australia and Chile that will improve international monitoring 
of harvest and trade of this deepsea fish. The resolution will 
improve monitoring of harvest and international trade in the 
species.
    At the meeting we negotiated a consensus document with 
Japan to initiate and complete a Memorandum of Understanding 
between CITES and the FAO, the Food and Agricultural 
Organization. This decision was accepted and will be considered 
by FAO through its Committee on Fisheries in late February. Our 
colleagues in the Department of State played a critical role in 
the U.S. Delegation on this issue, and we will reciprocate by 
working with them and NOAA Fisheries while negotiating the MOU 
in the Committee on Fisheries. With this exemplary interagency 
effort we hope to have the agreement in place and functioning 
well before the next Conference of the Parties in Bangkok.
    Last, the parties approved the proposal from Thailand to 
hold the 13th Conference of the Parties in Bangkok in late 2004 
or early 2005. We will begin our preparations for that next 
meeting later this year by seeking public input on potential 
United States proposals. We intend to follow a similar strategy 
leading up to that meeting with a primary focus on native 
species, collaboration at home and abroad, and a science-based 
practical approach to the conservation of species and trade.
    May I add finally on a personal note that I have rarely had 
such a personal or professional pleasure as being able to 
represent the United States of America in an international 
forum on such important issues as trade, conservation and 
international diplomacy. It is an experience that will remain 
with me all of my life.
    I would be pleased to answer any questions that you may 
have with respect to U.S. actions at that meeting.
    Mr. Gilchrest. Thank you very much, Judge.
    [The prepared statement of Mr. Manson follows:]

 Statement of The Honorable Craig Manson, Assistant Secretary for Fish 
        and Wildlife and Parks, U.S. Department of the Interior

    Mr. Chairman, and members of the Committee, I appreciate this 
opportunity to testify before you today and report on U.S. 
participation in, and the outcome of, the Twelfth Meeting of the 
Conference of the Parties (COP12 or COP) to the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES), which took place in Santiago, Chile, from November 3-15, 2002.
    CITES continues to serve as an effective and dynamic tool for 
protecting species of animals and plants affected by trade, and the 
number of countries that are parties to the treaty continues to grow. 
Just since the time of our previous testimony in September 2002, two 
new Parties--Kuwait and Bhutan--acceded to the treaty, becoming Parties 
during COP12 and bringing the total number of Parties to 160. In 
addition, Libya recently acceded to the treaty and it will be the 161st 
party to CITES in April 2003. At COP12, the Parties continued their 
efforts to strike a balance between the need to protect vulnerable 
species and the desire to reward countries that have demonstrated a 
commitment to the sustainable use of their wildlife resources.
    The U.S. lead on CITES matters rests with the Department of the 
Interior, through the U.S. Fish and Wildlife Service (Service). The 
Service works closely with the Departments of State, Commerce (NOAA 
Fisheries, in particular), Agriculture (both the Animal and Plant 
Health Inspection Service [APHIS] and the Forest Service), Treasury 
(Customs), Justice, the Agency for International Development, and the 
Office of the U.S. Trade Representative. All of these Federal agencies 
participated in the development of U.S. proposals and positions leading 
up to COP12, and most were also represented on the U.S. delegation to 
the meeting. Mr. John Turner, Assistant Secretary of State for 
International Environmental and Scientific Affairs, was able to join 
the leadership of the U.S. delegation for part of the meeting. 
Representatives of other agencies were active in negotiations and 
consultations with other Parties' delegations as well as in U.S. 
strategy development at the meeting.
    Our close relationship with the States on CITES issues continued at 
COP12, with a representative of the States, Wayne Regelin of the Alaska 
Department of Fish and Game, serving as a member of the U.S. 
delegation, as well as through representation as non-governmental 
observers by several regional associations of fish and wildlife 
agencies. We worked collaboratively with the States in the development 
of proposals, particularly those dealing with listings of native U.S. 
species and trade in their products.
    Non-governmental organizations (NGOs) based in the United States 
provided valuable input through our public consultation process for the 
development of U.S. proposals and positions for the COP. These 
organizations played an active role at the COP by attending as 
observers who, while unable to vote, participate in the discussion of 
issues in the meeting and also serve as members of ad hoc working 
groups during the meeting. The participation of NGOs as observers at 
CITES meetings is advocated by the United States to ensure transparency 
of CITES processes. They represent a spectrum of viewpoints and 
expertise that helps to inform delegates and enrich meetings. To ensure 
that we remained accessible and open to communication with the NGO 
community during the meeting, we held regular briefings for them at the 
end of each day's proceedings.
    COP12 was one of the most successful CITES meetings ever for the 
United States. We achieved our goals on nearly every issue, whether it 
was a species listing or addressing a particular problem with 
implementation of the treaty. As the head of the U.S. delegation, I 
worked actively with my counterparts from other countries on elephants, 
mahogany, whales, and other issue of importance to the United States. 
U.S. leadership was recognized in our serving on, and sometimes 
chairing, various working groups formed during the meeting. As Chair of 
the Standing Committee, the United States was a member of the Bureau, 
which serves as the ``Board of Directors'' during the meeting for 
dealing with administrative matters and resolving disputes. These 
interactions provided opportunities to work with other countries and 
NGOs to develop consensus solutions to shared problems.
    A key outcome of COP12 were a number of advances for the 
conservation of marine species subject to international trade, 
including the listing of whale sharks, basking sharks and seahorses; 
the development of a framework for collaboration between CITES and the 
Commission for the Conservation of Antarctic Marine Living Resources on 
Patagonian toothfish; the adoption of a decision drafted by the United 
States and Japan to establish formal ties between CITES and the United 
Nations Food and Agriculture Organization on fisheries issues; and a 
decision by the Parties to review the trade in sea cucumbers, which are 
a highly traded, but unregulated, marine resource.
    In response to documents submitted by the United States, ad hoc 
working groups were formed at the COP to address both scientific and 
implementation issues related to the use of export quotas by the CITES 
Parties. We chaired a working group formed to consider ways to assist 
countries in improving the scientific basis for establishing quotas. 
The working group, which included importing and exporting countries, as 
well as NGOs, reached a conclusion that the existing training programs 
of the CITES Secretariat were the most appropriate vehicle for 
providing technical assistance to Parties on the development of quotas. 
A decision was adopted to involve the Animals and Plants Committees in 
the development of training materials, based on sound scientific and 
management principles. We also submitted a document outlining problems 
related to implementation of quotas and were successful in getting this 
issue referred to the Standing Committee for further deliberation.
    The Parties also continued their efforts to find alternative 
approaches for dealing with specimens of CITES-listed species that 
represent a low conservation risk. Since COP11, we have participated in 
a working group assigned to investigate ways of streamlining permitting 
procedures for time-sensitive biological samples for research, 
diagnosis of disease, and other scientific purposes. The Parties 
adopted a resolution that simplifies procedures for these types of 
specimens while retaining sufficient control to ensure that negative 
impacts on wild populations are avoided. Two listing proposals also 
eliminated permitting requirements for certain CITES-listed species. 
Switzerland submitted a proposal to exempt certain artificially 
propagated cacti from CITES permitting requirements, and the United 
States submitted a proposal to have certain artificially propagated 
orchid hybrids exempted. Both of these proposals were adopted.
    The Parties dealt with 68 agenda items and 60 species proposals at 
COP12; we would like to highlight those that we feel are most 
significant.
RESOLUTIONS AND OTHER AGENDA ITEMS
Budget
    The activities of the CITES Secretariat and the permanent 
committees (Standing, Animals, and Plants) are funded through voluntary 
contributions of the Parties, augmented by a trust fund. In recent 
years, expenditures have exceeded the Parties' contributions, resulting 
in a draw-down of the trust fund. Therefore, a significant amount of 
time was spent at COP12 on budget matters. Because the demands on the 
Secretariat for assistance to the Parties and other activities continue 
to increase and because the trust fund had been drawn down to agreed 
upon levels, the Secretariat was seeking an increase in the Parties' 
voluntary contributions. However, based on longstanding U.S. policy, 
we, with like-minded countries, opposed any increase in the 
Secretariat's budget. Rather, we advocated seeking greater efficiency 
in the way work is conducted and the curtailment of low-priority 
activities. In the end, the parties approved a 6% increase in 
contributions, based on a desire to maintain capacity-building in 
developing countries and to assist developing countries to participate 
in meetings. As Chair of the Standing Committee, we will continue to 
work with other Parties to contain costs and control the CITES budget.
Consistency in CITES Implementation among Parties
    The effectiveness of CITES is directly impacted by Parties' ability 
to meet their obligations under the treaty. The Parties continue to 
wrestle with ways to encourage each other to improve their capacity for 
implementing the treaty and complying with its requirements. Several 
decisions were taken to move the Parties forward toward more uniform 
implementation and enforcement of CITES. These included: vesting the 
Standing Committee with a greater role in implementation; capacity-
building initiatives for developing countries; efforts to improve the 
exchange of law enforcement information to assist investigations; 
continuing progress on national laws to implement CITES; and the 
exploration of mechanisms to aid Parties in verification of the 
authenticity of CITES documents.
Review of the Listing Criteria
    The CITES listing criteria form the foundation for all activities 
under the treaty, since they determine which species are included in 
the Appendices and on what basis. The criteria were last modified at 
COP9, in 1994, when a major revision was undertaken. The Parties agreed 
at that time to review the criteria and make appropriate changes by 
COP12. Therefore, at COP11, a process was established for a review of 
the listing criteria through the establishment of a Criteria Working 
Group. Unfortunately, the process established at COP11 did not result 
in consensus recommendations from the Criteria Working Group for 
revision of the criteria, and many Parties adamantly opposed the 
adoption of any revisions at COP12. An ad hoc working group at the COP, 
on which NOAA Fisheries participated for the U.S. delegation, 
established a framework for continuing this review within the Animals 
and Plants Committees, with oversight by the Standing Committee. 
Recommended revisions to the listing criteria are to be submitted to 
COP13 for consideration by the Parties. We will remain active in the 
review process to ensure that listing criteria are grounded in science.
SPECIES LISTING PROPOSALS
    In preparing for COP12, we developed a strategy focused on native 
U.S. species as our highest priority. We also gave consideration to 
foreign species, particularly if the United States was significantly 
involved in the trade of a species or could play a leadership role in 
the conservation of the species. However, particularly for species 
outside our borders, all of our actions were grounded in collaboration 
with other agencies or governments and consensus building.
    We proposed or co-sponsored 16 species listing proposals for COP12. 
Of these, 7 were for native species; 5 were adopted, one was rejected, 
and one was withdrawn. We worked closely with and consulted the States 
and other Federal agencies, including NOAA Fisheries, as well as other 
Departmental bureaus such as the Bureau of Land Management and the 
National Park Service, on proposals for native species. The results of 
the proposals for native species are summarized in the table below.
[GRAPHIC] [TIFF OMITTED] 85178.001


    All of the U.S. proposals for non-native species were for Asian 
freshwater turtles and tortoises, and each of them included a range 
country as a co-sponsor. All of these proposals were prepared at the 
request of the Parties that attended a CITES-sponsored workshop, hosted 
by China in May 2002, to address the trade in turtle species in Asia. 
The workshop resulted in several recommendations by the participants, 
including specific recommendations to list species being threatened by 
over-utilization for human consumption. Because the proposals were 
derived from the workshop with the full endorsement of range countries, 
they were adopted by consensus at the COP with little debate. A similar 
workshop resulted in the U.S. submission of a proposal to include 
seahorses in Appendix II, also with broad support of range countries, 
which was adopted by a 3-to-1 margin. We believe that the use of such 
workshops to review the status of highly traded species can preclude 
contentious and time-consuming debate at a COP, and often result in 
recommendations other than listings of species in the CITES Appendices 
to address the conservation needs of the species.
African elephants
    A total of six proposals were submitted for consideration at COP12: 
five that would have allowed regular commercial trade in ivory by the 
proponent countries--Botswana, Namibia, South Africa, Zambia, and 
Zimbabwe--and a proposal from India and Kenya to return all African 
elephant populations to Appendix I, which would prohibit any further 
commercial ivory trade. The U.S. delegation put substantial effort into 
negotiations with the proponent countries to reach a compromise on the 
proposals. While recognizing the management successes of some of the 
range countries, we were concerned about regular ivory trade and 
negotiated with the southern African countries to amend their proposals 
to allow only a one-time sale of ivory. We also worked with other 
delegations to ensure that the conditions of any sale of ivory included 
effective safeguards to prevent adverse impacts on elephant populations 
in other countries.
    Three of the southern African nations, Botswana, Namibia, and South 
Africa, will be permitted to conduct a one-time sale of registered 
government stockpiles of ivory, no earlier than May 2004. Conditions 
for the sale include: the sale must be from existing government stocks 
from elephants that died from natural causes (Botswana 20 tons, Namibia 
10 tons, South Africa 30 tons); trade can occur only with qualifying 
importing countries that have effective internal law enforcement and 
controls to prevent illegal trade or the re-export of ivory; revenues 
from ivory sales must be used for conservation purposes or community 
development projects in areas within or adjacent to elephant range; and 
the Monitoring of Illegal Killing of Elephants (MIKE) program, which is 
designed to provide a baseline of elephant populations and ongoing 
monitoring, must be expanded and operational.
    Zimbabwe's proposal for ivory sales failed, as did Zambia's 
proposal to downlist its elephant population from Appendix I to 
Appendix II and to sell its government-held ivory stock. The United 
States led a majority of countries which did not support Zimbabwe's 
proposal because of concerns over the current political situation in 
the country and whether they could adequately control and enforce 
requirements for a one-time sale of registered government stockpiles of 
ivory. A majority of the Parties, including the United States, did not 
support Zambia's proposal because their elephant population has not yet 
stabilized and they lack the internal mechanisms for enforcement. 
However, we are reviewing ways to assist Zambia in rectifying these 
problems through potential funding under the African Elephant 
Conservation Act.
Mahogany
    A proposal to include bigleaf mahogany in Appendix II was submitted 
by Guatemala and Nicaragua. This was the fourth time such a proposal 
had been submitted to a COP, and two previous proposals had been co-
sponsored by the United States. We came into COP12 officially undecided 
on the proposal to list bigleaf mahogany in CITES Appendix II. We came 
prepared to consult quietly with range States, listen to their views on 
the listing, and take a position that would best support range-State 
efforts to achieve sustainable harvest and continued trade in mahogany 
underpinned by implementation of broader sustainable forest management 
plans across the range.
    We facilitated a dialogue between the range countries, and we 
indicated our commitment, as the largest importer, to maintain healthy 
trade and our willingness to cooperate with the range States as they 
seek to strengthen sustainable forest management and mahogany control 
efforts. We used our undecided position to encourage all parties to 
come to a consensus on the most effective outcome for conservation and 
sustainable use of the species.
    When the proposal came to a vote, no broad consensus had been 
reached among all the range countries on an Appendix-II listing. In 
this case, we were prepared to, and did, vote for the listing proposal. 
We believe that our vote for Appendix II is a vote for sustainable use 
and continued trade of bigleaf mahogany. An Appendix II listing under 
CITES is not designed to discourage trade. Rather it is intended to 
ensure trade is based on sustainable harvest.
    As the major importer of bigleaf mahogany, the U.S. is committed to 
making this listing work, both at our ports and for the U.S. consumer. 
We are also committed to working with the range States to make it a 
success. The Service has coordinated an interagency effort to put into 
place an administrative plan on implementation for the listing, which 
becomes effective on November 14, 2003.
Whales
    Japan submitted two proposals that would have downlisted virtually 
all the northern hemisphere populations of minke whales and the western 
North Pacific population of Bryde's (pronounced ``broodis'') whales 
from Appendix I to Appendix II of the convention. We are pleased that 
the member nations of CITES did not approve these proposals, which 
would have allowed new significant commercial trade in whales for the 
first time since 1986 when virtually all whale populations were placed 
in Appendix I.
    Under CITES, a proposal to uplist or downlist a species requires a 
two-thirds majority vote. Neither of the Japanese proposals garnered 
even a majority. The United States, under expert guidance from the NOAA 
Fisheries, strongly stated our position that we do not believe that the 
species qualify for downlisting to Appendix II or that it would be 
appropriate to resume commercial trade at this time. We are gratified 
that other nations agreed with our position and voted to reject the 
proposals. We also believe it is inappropriate to consider downlisting 
the two species under CITES until the International Whaling Commission 
completes its revised management scheme for the species. The IWC 
currently has in place a moratorium on commercial whaling.
    The decision to lower the protection status for species under CITES 
depends both upon biological factors and whether effective management 
and enforcement plans are in place. Currently there is no agreed-upon 
plan to regulate and enforce commercial whaling, so the two species do 
not qualify for downlisting.
Other Marine Species
    Progress on marine conservation at COP12 was due in large part to 
unparalleled interagency effort with the Service, NOAA Fisheries, and 
the Department of State. Staff and leadership from all three 
departments worked consistently and tirelessly to advocate our 
positions, develop international consensus, and plan future 
collaboration. I'd like to spend a few minutes highlighting some of 
their accomplishments.
    Seahorses: With the support of our State and territorial fisheries 
agencies, the Service and NOAA Fisheries jointly developed a proposal 
to list all 32 species of seahorses in Appendix II of CITES, to require 
systematic permitting and monitoring of all international trade in this 
taxon between CITES nations. Seahorses are vulnerable because of low 
reproductive potential, habitat degradation, and complex reproductive 
cycles. Overfishing or population declines are apparent in several 
nations for at least six species. Other species of seahorses qualify 
for Appendix II because they closely resemble the most threatened and 
heavily fished species. The proposal was adopted by consensus, but with 
our suggested delayed implementation until May 2004. During the 18-
month delay, we plan to work with both our State partners and foreign 
governments to ensure that legal, sustainable seahorse trade continues 
smoothly under the Appendix-II listing. Issues that need to be 
addressed include: 1) exporting countries' need for technical 
assistance in monitoring harvest and restricting exports to sustainable 
levels; 2) consideration of a global minimum size that will help ensure 
sustainable harvest; 3) consulting with U.S. State agencies to advise 
them on future permitting requirements for export; and 4) practical 
means for addressing bycatch of seahorses. We have already approached 
seahorse fishery managers in Florida to discuss possible bilateral 
technical exchanges with other governments in 2003. We are also working 
with academia and experts in non-governmental organizations to issue a 
new identification manual for all 32 species, which will be distributed 
worldwide for use in law enforcement.
    Sea cucumbers: Colleagues in NOAA Fisheries developed for COP12 a 
discussion document on the conservation of and trade in sea cucumbers. 
Harvest pressure on these species has increased in recent years due to 
growing international demand. The U.S. proposal, supported by others, 
requested an intersessional technical workshop to evaluate the 
conservation status of these species and consider appropriate 
conservation measures, including regional management, domestic 
fisheries controls, and possible future CITES listing. Japan, supported 
by Cuba, China, and Malaysia, opposed any action by the CITES Parties, 
considering the topic to be under the jurisdiction of FAO and other 
fisheries organizations. However, the majority of CITES nations 
accepted the U.S. proposal for a technical workshop and directed the 
CITES Animals Committee to prepare a discussion paper for COP13 
(tentatively scheduled for late 2004) on biological and trade status 
and conservation needs.
    We now plan to provide partial funding for this workshop, which 
should occur in late 2003 or early 2004. We will also strive to confirm 
specific terms of reference for this workshop at the next CITES Animals 
Committee meeting this summer. We envision several key topics to 
address, including identification of dried specimens in trade, 
appropriate monitoring protocols, and effective fishery management 
approaches. We will remain an active participant in this issue through 
final report submission at COP13.
    Humphead wrasse: With strong support from other countries and our 
Pacific territories, we introduced a proposal to list the humphead 
wrasse in Appendix II at COP12. The humphead wrasse is one of the 
largest coral reef fishes, growing to more than 2 meters in length and 
living more than 30 years. It is heavily exploited for the live reef 
food fish trade, which supplies luxury restaurants in Hong Kong and 
other Asian markets. The species can fetch up to $150 per kilogram, and 
demand is expected to grow with increasing human populations and 
affluence in China. Declines or extirpations have been reported 
throughout the species' range from the Red Sea to the South Pacific 
shortly after commercial fisheries began. Our Pacific territories have 
experienced this first-hand. Although the proposal failed with a simple 
majority approval, we feel that this voting pattern shows broad 
interest in this issue. We plan to consult with other Pacific countries 
and pursue ways to keep the live reef food fish trade and humphead 
wrasse at the forefront of CITES discussions. We will also consider 
whether to re-propose a listing at COP13.
    Toothfish: On the Patagonian toothfish issue, the United States 
helped work out an agreement between Australia and Chile that will 
improve international monitoring of harvest and trade of this deep-sea 
fish, which is threatened by over-harvesting and illegal fishing. The 
resolution will improve monitoring of harvests and international trade 
in the species, which is also known as Chilean sea bass. As a result of 
the resolution, Australia withdrew a proposal to list the species in 
Appendix II.
    Once again, range states disagreed sharply over the need to protect 
a species: the Australians wanted to list toothfish in Appendix II 
while the Chileans were strongly opposed. We quietly conferred with 
both countries and with other range states to come up with an 
acceptable proposal establishing a collaborative mechanism between 
CITES and the Convention on the Conservation of Antarctic Marine Living 
Resources (CCAMLR) that will lead to better conservation of the 
species.
    Cooperation between FAO and CITES: For many years, the United 
Nations Food and Agriculture Organization (FAO) Fisheries Program has 
been working with CITES Parties on issues of mutual concern. These 
include the biological criteria for listing marine species in the CITES 
Appendices and international shark conservation. This work has resulted 
in a strong desire among member States of both organizations for the 
two bodies to work more cooperatively on issues of mutual interest. 
Such work could include scientific review of marine species listing 
proposals for CITES. At COP12, we negotiated a consensus document with 
the Japanese asking the Parties to approve the initiation and 
completion of a formal Memorandum of Understanding (MOU) between the 
two institutions. This decision was accepted, almost unanimously by the 
CITES Parties, and will be considered by FAO through its Committee on 
Fisheries in late February. Our colleagues in the Department of State 
played a critical role in the U.S. delegation on this issue at COP12, 
and we will reciprocate by working with them and the NOAA Fisheries 
while negotiating the MOU in the Committee on Fisheries. With this 
exemplary interagency effort, we hope to have the agreement in place 
and functioning well before COP13.
COP13--WHEN AND WHERE
    The Parties approved a proposal from Thailand to host COP13 in 
Bangkok in late 2004 or early 2005, with specific dates to be 
determined. We will begin our preparations for COP13 later this year by 
seeking public input on potential U.S. proposals. We intend to follow a 
similar strategy leading up to COP13, with a primary focus on native 
species, collaboration at home and abroad, and a science-based, 
practical approach to the conservation of species in trade.
ATTACHMENTS
    Attached are two tables, one listing all of the agenda items and a 
summary of the outcome for each, and another listing all of the species 
proposals and the results for each.
    I would be pleased to answer any questions you may have about U.S. 
actions at COP12 and the outcome of any agenda items or proposals not 
discussed in detail here.
                                 ______
                                 
    [Attachments to Mr. Manson's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 85178.002
    
    [GRAPHIC] [TIFF OMITTED] 85178.003
    
    [GRAPHIC] [TIFF OMITTED] 85178.004
    
    [GRAPHIC] [TIFF OMITTED] 85178.005
    
    [GRAPHIC] [TIFF OMITTED] 85178.006
    
    [GRAPHIC] [TIFF OMITTED] 85178.007
    
    [GRAPHIC] [TIFF OMITTED] 85178.008
    
    [GRAPHIC] [TIFF OMITTED] 85178.009
    
    [GRAPHIC] [TIFF OMITTED] 85178.010
    
    Mr. Gilchrest. Dr. Lent?

 STATEMENT OF REBECCA LENT, DEPUTY ASSISTANT ADMINISTRATOR FOR 
  FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Dr. Lent. Thank you, Mr. Chairman, members of the 
Subcommittee. I appreciate the opportunity to come here today 
to talk about CITES. Also a good chance for me to congratulate 
Judge Manson for his stellar leadership. It is a big 
delegation. The issues are tough, and we really made a lot of 
progress.
    In answer to your question, is CITES better, I would answer 
yes. I think you are going to hear today why that is. As you 
have noticed, the marine species are getting more visibility at 
CITES. Some of the same issues that are contentious here at 
home are contentious at CITES as well, whales, marine turtles 
and other species. At NOAA Fisheries we take these 
responsibilities very seriously. We work well with our partners 
at these meetings, as well between the meetings, to make sure 
that CITES is being effectively implemented.
    At the most recent meeting, a lot of progress was made on 
marine species. As Judge Manson told you, Japan submitted two 
proposals to downlist whales. These were defeated. The U.S. 
opposed it because there is no management measures--no revised 
management scheme in place for the management of these whales. 
The IWC has asked us to keep them on Appendix I. The DNA 
registers that were proposed would not be available for 
inspectors, whether it is other nations or organizations, and 
there were a number of enforcement difficulties with the 
proposals. They were defeated. It was a change from the 
previous meeting in Nairobi where Japan was able to garner a 
simple majority.
    So are things changing? We think so. For large-scale marine 
fisheries, one of the exciting areas of progress is that CITES 
is working better with the regional fishery management 
organizations already in place. That is the way it should be. 
The joint resolution by the U.S. and Japan for an MOU with the 
FAO is a great way to get all of the talents of FAO to help us 
at CITES with the marine species. As a collaborative process it 
is going to help us address issues such as IUU, the illegal, 
unregulated, unreported fishing and building capacity in 
developing countries.
    Also as you heard, the CCAMLR, the Antarctic Treaty 
Organization, we have got an agreement between CITES and CCAMLR 
to use their catch documentation scheme and to encourage CITES 
countries, 160 of them as opposed to, I think--CCAMLR is 40. I 
will have to get the number for you--a lot more countries 
involved in using that catch documentation scheme, which is 
basically the same approach as CITES Appendix II listing 
getting the trade tracked and monitored.
    [Information submitted for the record by NOAA follows:]

    NOTE: While Dr. Lent's testimony states CCAMLR has 40 members, the 
correct number is 24 members.
    On the other marine species that were listed, what is 
important to note here is that these are species that are not 
covered by a regional fishery management organization. They are 
also species for which trade is an important part of the 
incentive to harvest. So it is really a good result to have an 
Appendix II listing for the 32 seahorses and historically first 
two ever whales on CITES Appendix II.
    The whale sharks and the basking sharks are easy to catch, 
they are long-lived, it is easy to overfish them, and we are 
really pleased that they made it on Appendix II.
    We also had an agreement to work on a workshop on sea 
cucumbers, which is an important part of coral reef ecosystems. 
They act like earthworms, helping to turn the soil over and 
therefore increasing productivity of the entire ecosystem. It 
is not just the cucumbers we are worried about.
    So those are some of our very important measures of 
progress. I should note, too, on sharks that we worked with the 
other countries to encourage preparations of the national plans 
of action so that we can move from the international plan of 
action for sharks to domestic national plan of action. We have 
one in the United States. Just two other countries have them. 
So it is important for us to get those plans of action in 
place.
    We continue to work with CITES for improving the criteria 
for Appendices I and II. This is another part of CITES getting 
better, taking advantage of new science that we have in the 
marine world and making sure that both criteria and guidelines 
are taking the appropriate steps when listing marine species.
    It will be another 2 years, I believe, before the parties 
meet again. The work does not stop when we get home. In fact, 
the work starts anew with new measures that we have to put in 
place, and sometimes this involves rulemaking. We will continue 
to work on that with our partners at DOI, State and others, and 
we will continue to make these efforts because it is only when 
we get home and we implement these measures and enforce them 
that we are really having an effect on these species. I believe 
that through general progress in marine science that we are 
making domestically in the United States, and all of our 
partners at CITES, and through the World Conservation Union, 
yes, indeed, the more we know, the better we are in terms of 
figuring out what is going on with these species, whether or 
not they are going to meet criteria and the guidelines for 
listing.
    I hope that addresses your questions, Mr. Chairman and 
members of the Committee, and I look forward to your questions.
    Mr. Gilchrest. Thank you, Dr. Lent.
    [The prepared statement of Dr. Lent follows:]

 Statement of Rebecca Lent, Ph.D., Deputy Assistant Administrator for 
   Fisheries, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify before the Subcommittee on the Convention on 
International Trade in Endangered Species (CITES). I am Dr. Rebecca 
Lent, Deputy Assistant Administrator for Fisheries for the National 
Oceanic and Atmospheric Administration (NOAA). I appreciate the 
opportunity to discuss with you some recent NOAA achievements in the 
CITES arena. In my testimony, I will describe NOAA's role in the 
successes achieved by the U.S. government on marine species proposals, 
resolutions and agenda items at the 12th Meeting of the Conference of 
the CITES Parties (COP12) that was held November 3-15, 2002.
    The United States Fish and Wildlife Service (FWS) of the Department 
of the Interior is responsible for the implementation and enforcement 
of CITES for animals, and the United States Department of Agriculture, 
Animal and Plant Health Inspection Service, is responsible for 
enforcement of CITES for plants. NOAA Fisheries has actively 
participated in FWS' inter-agency collaborative working group to 
develop United States policy on CITES for marine species.
    In contrast to the past, an increasing number of highly visible 
marine species that are listed in either Appendix I or II of CITES are 
within the domestic jurisdiction of NOAA, in the Department of 
Commerce. Prior to COP12, these included the great whales, dolphins, 
queen conch, giant clams, hard corals and five species of seals. Whale 
sharks, basking sharks and seahorses were added to Appendix II at the 
most recent meeting of the CITES Parties. In addition, all marine 
turtles, whose protection under the Endangered Species Act (ESA) is 
shared by the two agencies, are listed in Appendix I of CITES. In NOAA, 
responsibility for protection of these marine species has been 
delegated to the National Marine Fisheries Service (NOAA Fisheries). In 
sum, while Interior's trust resources were more at issue in past years, 
marine species issues under NOAA Fisheries jurisdiction have become 
increasingly more important.
    Some of the most contentious issues discussed in CITES involve 
marine species. Marine issues at COP12 ranged from efforts to reopen 
commercial trade in large whales to considering how CITES might be used 
to promote the conservation and management of marine fishes through 
regulation of their international trade in CITES Appendix II. In short, 
NOAA Fisheries plays an integral role in CITES based on our expertise 
in marine species.
    In addition to our contribution to Meetings of the Conferences of 
the CITES Parties, NOAA has been effective in day-to-day activities to 
enhance international protection for such CITES species as hard corals, 
queen conch, marine turtles and whales. One important CITES-related 
project that NOAA Fisheries initiated with the Caribbean Fishery 
Management Council and the Department of State is the development of an 
International Queen Conch Initiative in the Wider Caribbean. This 
initiative is dedicated to promoting a regional conservation regime for 
this species, whose significant international trade is regulated by 
CITES. NOAA and FWS also provided expertise to developing countries in 
both the Indo-Pacific and Caribbean to assist them in developing 
sustainable management plans for exports of hard corals and have 
developed an identification guide that will be used internationally to 
help countries ensure that their trade is legal and sustainable.
CITES BACKGROUND
    CITES is an international wildlife trade regime which will be 
adding its 161st member country. CITES, therefore, focuses on 
controlling trade in troubled species. Species are listed in the CITES 
Appendices according to their conservation status. In order to be 
listed under CITES, species must meet the test that their population 
is, or may be, affected by trade. Species listed in CITES Appendix I 
(such as whales and marine turtles), for which there is no 
international trade for primarily commercial purposes, are ``threatened 
with extinction.'' Appendix II species (such as queen conch, sturgeon 
and stony corals) are ``not necessarily threatened with extinction,'' 
but may become so unless trade is strictly regulated. This regulation 
takes the form of a requirement for documentation from the country of 
export or re-export, monitoring of trade and, in a few cases, national 
export quotas. Another form of regulation is listing in Appendix III 
(under which great white sharks from Australia are regulated). A 
country may unilaterally (without a vote) list in Appendix III any 
species that is subject to regulation within its jurisdiction for which 
the cooperation of other Parties is needed. Exporting range countries 
must issue export or country of origin permits for Appendix III 
species.
COP12 ACHIEVEMENTS FOR MARINE SPECIES
    NOAA Fisheries testified before this Subcommittee last year about 
the process that we undertake to develop our contributions to the 
preparation for Meetings of the Conferences of the Parties. We have, in 
our headquarters and regional offices and in our science centers, the 
expertise necessary to contribute to United States policy on CITES for 
marine species under our jurisdiction. At the most recent meeting of 
the COP, NOAA members of the United States delegation participated in 
efforts for the conservation of the following marine species:
Northern Hemisphere Minke and Bryde's whales, Balaenoptera 
        acutorostrata and Balaenoptera edeni (Proposals of Japan)
    Japan submitted two proposals to downlist 7 northern hemisphere 
stocks of minke whales and the western North Pacific stock of Bryde's 
whales from Appendix I to Appendix II, in order to reopen commercial 
trade. The U.S. opposed the proposals for several reasons: first, 
because the stocks do not meet the CITES criteria for downlisting since 
no effective management regime, in the form of a Revised Management 
Scheme (RMS) under the International Whaling Commission (IWC), is in 
place for commercial whaling; second, the IWC, which has management 
responsibility for whales, has requested that the parties maintain 
these species on Appendix I; third, the DNA registers proposed by Japan 
were inadequate because they would be accessible only to the trading 
countries and not subject to independent verification by other 
countries or organizations; and fourth, there were noted enforcement 
difficulties with the proposals.
    Both proposals were defeated in the Committee. These votes mark an 
erosion of support for Japan's whale proposals since COP11 in Nairobi 
in 2000, when Japan was able to garner a simple majority, but not the 
necessary two-thirds of the parties.
    In a final effort to gain support from the Parties, Japan raised 
the minke whale downlisting proposal for reconsideration in the closing 
plenary session, and amended the proposal to include only one stock 
(Okhotsk-West Pacific stock). The proposal was again defeated by a 
majority of CITES members.
Seahorses, Hippocampus spp. (Proposal of the United States)
    The United States proposed to list all 32 species of seahorses in 
the genus Hippocampus on Appendix II to ensure that international trade 
does not contribute to the decline and extirpation of seahorse 
populations. Seahorse populations are being over-exploited to supply a 
rapidly growing trade for traditional Chinese medicine (TCM) and its 
derivatives, aquarium pets, souvenirs and curios, with over 70 metric 
tons (20 million animals)imported into Asia alone for TCM in 2000. 
Seahorse populations are at risk of localized extinction and some 
species exhibit a high degree of fragmentation due to overfishing, 
habitat loss, and bycatch in shrimp and scallop trawls, with threats 
compounded by their vulnerable life history traits including rarity of 
and limited reproductive potential. A CITES-sponsored workshop endorsed 
the need for this listing. The listing passed by a two-thirds vote of 
the Conference, with a provision for a delayed implementation to allow 
countries sufficient time to address implementation issues such as the 
identification of species in trade and making of non-detriment 
findings.
Whale shark, Rhincodon typus (Proposal of India, the Philippines and 
        Madagascar)
    This proposal sought to add the species in Appendix II. NOAA 
personnel have gathered firsthand information on this extremely rare 
species, particularly information about the increasing international 
trade in the Indo-Pacific, with products destined for Taiwan. The 
species is rare and local, seasonal populations have declined 
drastically in some areas. Fishing effort has greatly increased due to 
an increase in price for this species. Sharks are more vulnerable to 
exploitation than are most other fishes because of their longevity, 
delayed maturation, and relatively low fecundity. Total population size 
is unknown, but the species is considered to be rare. Take of whale 
sharks in Atlantic Ocean waters of the United States is prohibited. The 
proposal was passed by two-thirds majority of the Conference.
Basking shark, Cetorhinus maximus (Proposal of the United Kingdom on 
        behalf of the European Union)
    The European Union proposed to list this species in Appendix II. 
The main threat to basking shark populations is from fishing 
operations, both targeted on basking sharks and through incidental or 
bycatch in other fisheries. The biology of the species makes it 
especially vulnerable to exploitation: it has a slow growth rate, a 
long time to sexual maturity (ca. 12-20 years), a long gestation period 
(1-3 years) and a similar interval between pregnancies, low fecundity 
(the only recorded litter was of just six very large pups), and 
probable small populations. Take of basking sharks in Atlantic Ocean 
waters of the United States is prohibited. This proposal gained passage 
by a two-thirds vote of the Conference.
Black Sea bottlenose dolphin (Tursiops truncatus ponticus) (Proposal of 
        the Republic of Georgia)
    Georgia proposed to transfer specimens of this species in their 
waters from Appendix II to Appendix I. Threatened by direct hunting, 
pollution, habitat degradation and bycatch, there are indications that 
many populations in this region have declined. Despite this, bottlenose 
dolphins from this area may potentially be taken for export to public 
display facilities at unsustainable levels. Although the proposal 
failed to attain the majority necessary for passage, it was amended to 
retain the species in Appendix II with zero export quota for live 
specimens from the Black Sea population. A subsequent vote on this 
amended proposal passed. It is believed that this measure will assist 
in the conservation of this species by ceasing the international 
portion of this potentially damaging trade.
Humphead wrasse (Cheilinus undulatus)(Proposal of the United States)
    To begin addressing coral reef species that are being unsustainably 
harvested and captured using destructive fishing techniques (cyanide), 
the United States proposed the humphead wrasse for inclusion on 
Appendix II of CITES.
    The primary global threats to humphead wrasse is over-harvest to 
supply for the live reef food fish trade, along with high demand for 
small ``plate-sized'' immature fish. Humphead wrasse are vulnerable to 
overfishing due to their slow growth, long life late maturity, sex 
change and other biological characteristics. Due to documented declines 
and extirpations, export bans or minimum size restrictions have been 
implemented in six countries, but illegal, unregulated and unreported 
fisheries are common and there is a lack of coordinated, consistent 
national and regional management.
    The U.S. proposal was defeated by a narrow margin.
Application of the United Kingdom, on behalf of the Cayman Islands, to 
        register a captive-breeding operation for the green turtle 
        Chelonia mydas
    This proposal, which would have allowed the export of green turtle 
shells from the Cayman Islands, was opposed by the United States. The 
proposal failed to gain the necessary two-thirds majority required for 
passage.
ACHIEVEMENTS IN RESOLUTIONS AND DISCUSSION DOCUMENTS
    In addition to listing proposals, the following actions were taken 
on resolutions and discussion papers concerning marine species:
Resolution on FAO Collaboration with CITES through a Memorandum of 
        Understanding (Joint proposal of the United States and Japan)
    This resolution established a framework for cooperation between 
CITES and the United Nations Food and Agriculture Organization (FAO) 
for consideration of marine fish for listing in CITES and for 
implementation of species listed in Appendix II. The Memorandum of 
Understanding (MOU) would facilitate the implementation of 
recommendations concerning CITES regulation of international trade in 
marine fish adopted at the Eighth Session of the FAO Committee on 
Fisheries' Sub-Committee on Fish Trade, held in February 2002 in 
Bremen, Germany. The United States recognized the contributions FAO has 
made in evaluating the CITES listing criteria for marine fish and 
supported a formal MOU between CITES and FAO to facilitate exchange of 
information and technical advice between the two bodies regarding 
commercially exploited fish species, increase the effectiveness of both 
organizations and build fisheries and CITES enforcement capacity in 
developing countries. The resolution passed by consensus.
Resolution on Cooperation between CITES and the Convention on the 
        Conservation of Antarctic Marine Living Resources (CCAMLR) 
        regarding trade in the Patagonian toothfish (Joint proposal of 
        Chile and Australia)
    This resolution was considered as a result of a proposal by the 
government of Australia to list Patagonian and Antarctic toothfish 
(Dissostichus eleginoides and D. mawsonii) in Appendix II and a 
proposal of the government of Chile calling for all countries engaged 
in the harvest, landing, transshipment, import or export of these 
species to voluntarily comply with CCAMLR's Catch Documentation Scheme. 
The United States arrived at COP12 undecided about this issue. After a 
series of meetings between the proponent countries and the United 
States, a compromise resolution, which instructs the CITES Secretariat 
to compile information about the implementation of CCAMLR requirements 
and to further encourage cooperation between the two bodies, was agreed 
to. This resolution establishing a mechanism for cooperation between 
the two bodies passed by consensus.
Resolution on Conservation of and trade in sharks (Joint Proposal of 
        Ecuador and Australia)
    A series of Decisions and Resolutions since COP9 prompted 
international discussion on sharks in both CITES and FAO fora. The net 
result of this activity was FAO's adoption in 1999 of an International 
Plan of Action for Sharks (IPOA-Sharks), and ongoing monitoring by the 
CITES Parties of FAO success in this endeavor. Although the IPOA lays 
out specific elements for National Plans of Action (NPOAs) to conserve 
sharks (data collection, monitoring, stock assessment, etc.), it is 
purely a voluntary measure that has met with limited success in FAO 
member nations. Out of 87 shark-fishing nations, only two (the United 
States and Japan) have adopted NPOAs. Fifteen other member nations have 
committed to developing NPOAs, but often have made this contingent on 
external assistance and funding. This resolution, which was adopted by 
consensus, directs the CITES Animals Committee to review progress of 
Member Countries and FAO towards implementation of FAO's International 
Plan of Action for Sharks.
Trade in sea cucumbers in the families Holothuridae and Stichopodidae 
        (Proposal of the United States)
    A discussion document was submitted by the U.S. on the biological 
status of sea cucumbers and conservation concerns arising from 
international trade. This document requested that the CITES 
Secretariat, through the Animals Committee and with assistance from the 
Parties, evaluate the status of populations and the extent of 
international trade, and determine whether a CITES Appendix II listing 
can contribute to their conservation.
    Sea cucumbers have been harvested commercially for at least 1,000 
years, but the demand for this food item in Asian markets worldwide has 
led to a dramatic increase in international trade for food beginning in 
the late 1980s and early 1990s, reaching a global annual volume of 
about 13,000 metric tons (mt) of dried sea cucumber (130,000 mt live) 
in 1995. Sea cucumbers are sedentary animals that are especially 
susceptible to over-exploitation because they are large, easily 
collected, and do not require sophisticated fishing techniques. They 
are important components of the food chain in coral reefs and 
associated ecosystems at various trophic levels. Sea cucumbers also 
play an important role as deposit feeders, ingesting large amounts of 
sediment, turning over the top layers of sediment in lagoons, reefs, 
and other habitats, and allowing oxygenation of sediment layers, much 
like earthworms do on land. This process prevents the build-up of 
decaying organic matter and may help control populations of pest and 
pathogenic microorganisms. Over-exploitation has caused a hardening of 
the sea floor, eliminating habitat for other organisms.
    COP12 took a decision which calls on the CITES Secretariat, subject 
to available funds, to convene a workshop of experts on the biology of 
and international trade in these species. The CITES Animals Committee 
will review the outcome of the workshop and prepare a discussion paper 
for the 13th Meeting of the Conference of the CITES Parties to provide 
scientific guidance on the actions needed to secure their conservation 
status, including domestic and regional management provisions, and a 
possible Appendix II listing.
Criteria for amendment of Appendices I and II
    In 1994, CITES revised its criteria for listing species on the 
CITES Appendices, and also called for an evaluation of whether the 
revised criteria are workable. NOAA Fisheries has been actively 
involved in the review process; for marine species, NOAA Fisheries led 
an interagency task force to evaluate the criteria and participated as 
part of the U.S. delegation, in consultations on this issue hosted by 
other organizations, such as the FAO and CITES itself. In fact, many of 
the recommendations of the interagency task force to refine the listing 
criteria and guidelines have been incorporated into proposals by FAO 
and the CITES Criteria Working Group. Although NOAA Fisheries' focus 
has been on exploited and protected marine species, the interagency 
task force attempted to develop criteria that could be adapted to all 
marine species. A resolution was passed by consensus calling for 
further review of the CITES criteria, based on revisions that have 
already been considered, including reviews of selected taxa and how the 
criteria apply to them.
NEXT STEPS
    Although Meetings of the Conferences of the CITES Parties are only 
convened approximately every two years, implementation of their 
decisions is an on-going process. Many of the decisions taken at COP12 
institute long-term processes or require additional work in order to be 
implemented in the smoothest possible manner. An example of the former 
will be the development of a collaborative process for CITES and FAO to 
consider issues of interest to both bodies. NOAA Fisheries has been 
working with the FWS and the Department of State on preparations for 
discussion of an MOU to be considered at the 25th Meeting of FAO's 
Committee on Fisheries (COFI), which began their deliberations 
yesterday. NOAA Fisheries and FWS have been considering issues to be 
discussed at the workshop on sea cucumbers and how to convene a 
workshop to harness the expertise of fishers in Florida to ease the 
implementation of the Appendix II listing of seahorses. In addition, 
NOAA Fisheries is committed to continuing to provide our expertise to 
inter-sessional meetings, such as those of the CITES Animals and 
Standing Committee meetings.
    Thank you, Mr. Chairman, for your continued interest in this 
important issue. We look forward to working with other U.S. agencies, 
partner countries and non-governmental organizations to turn the 
decisions of the COP12 into concrete conservation accomplishments for 
marine species.
                                 ______
                                 
    Mr. Gilchrest. You want to run the lights for the 
questions? We may run the light for the questions, and we may 
have a second round of questions, but that will keep us in a 
progressive, orderly fashion, I think.
    Judge, Dr. Lent, would you say that the consensus that you 
reached as far as the sale of ivory stockpiles is concerned 
left all the parties, particularly those African countries and 
India, feeling good about the agreement that was reached? And 
can you comment on the proposal by Kenya that was adopted by 
CITES to revise the trade in elephant specimens; and what 
exactly does that mean, elephant specimens, and what type of 
specimens are a problem?
    Mr. Manson.  Let me say first that I have submitted written 
testimony that goes into a great deal of detail on all of the 
issues here. The African elephant decision, I thought, was a 
very good one for the conservation of African elephants 
overall. We worked very hard to come up with a proposal that 
was acceptable, obviously, to the supermajority necessary to 
pass the proposal. I think that we consulted extensively with 
Kenya in particular and all of the range states. We also 
consulted with India. We indicated our commitment to continued 
conservation efforts in both Africa and Asia.
    I think that in the end, Kenya and, to a lesser extent, 
India came away with a number of concerns. I think that Kenya 
retains its concern about poaching, and I think that Kenya 
obviously is strongly against the proposals that were passed. 
Kenya, I think, made it very clear what their position is on 
all of these topics; India, as I said, I think to some lesser 
degree. Your question was if they felt good about it. I don't 
think the Kenyans felt good about it.
    Mr. Gilchrest. How does this work now? There was a 
consensus, so there is going to be this sale, one-time sale, of 
ivory stockpiles. Are there ivory stockpiles in Kenya that they 
may or may not sell then?
    Mr. Manson.  Well, the Kenyans didn't ask for permission to 
sell any ivory that they may have stockpiled.
    Mr. Gilchrest. They don't have to?
    Mr. Manson. They don't have to, and they are not 
authorized. The Botswanans and the Namibians and the South 
Africans are the only ones that are authorized. There were 
proposals from Zambia and Zimbabwe to sell government stockpile 
ivory. We voted against both of those proposals from Zambia and 
Zimbabwe. Those proposals did not pass because of concerns 
about the ability of both of those countries, Zambia and 
Zimbabwe, to adequately manage their elephant populations, and 
to conduct sales of ivory, and to monitor ivory sales, and to 
monitor the illegal killing of elephants in such a way that we 
could be assured that elephants would be adequately conserved 
in those countries.
    Mr. Gilchrest. So this is a one-time sale?
    Mr. Manson.  It is a one-time sale.
    Mr. Gilchrest. So they would have to sell these stockpiles 
in a period of a year, so many months?
    Mr. Manson.  Well, the standing committee will work out the 
exact details of when the sale will take place and the 
conditions under which it will take place. I will say this: The 
proposals call for the proceeds of the sale to be put back into 
conservation efforts and community development. The impact on 
elephants in these countries is a very significant one. For 
example, in Botswana, it is estimated that the carrying 
capacity of the land is something like 50,000 elephants, and 
there may be as many as 100- or 150,000 elephants in Botswana. 
The Botswana Land Minister told me that the impact of living 
with elephants on the human populations is extremely 
significant, and, in fact, it is so significant that the people 
are not allies of elephant conservation under those 
circumstances. And by putting this money back into elephant 
conservation efforts, we will make allies of people of elephant 
conservation.
    Mr. Gilchrest. Thank you, Judge.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    Judge Manson, I think you are aware that there are many in 
the conservation community who are wary of allowing any trade 
of ivory because it will allow cover for possibly illegal 
trade, and there is sort of a domino effect there that is of 
concern. I am wondering on what basis the U.S. delegation 
determined that, you know, the U.S. public or Congress would 
support U.S. involvement in facilitating commercialization of 
ivory. In other words, given that concern, why did the U.S. 
support, if you will, this one-time sale?
    Mr. Manson.  I think it is important to understand we are 
not supporting the general commercialization of ivory. We are 
supporting the one-time sale of ivory under limited 
circumstances, with the proceeds targeted for very limited 
purposes.
    Now, with respect to the overall issue of poaching of ivory 
and the illegal trade in ivory, we have taken a very firm stand 
against that, and we have committed to put resources into the 
various protocols, such as the monitoring of the illegal 
killing of elephants, the elephant trade information system. 
And at the meeting we took a very stern position with several 
countries, primarily Asian countries which have inadequate 
mechanisms for monitoring the ivory trade in those countries. 
Some of those countries are allies of the United States on a 
number of other issues and other trade issues, but we both in 
public and in private took a very firm line with them to let 
them know that they must improve their systems for monitoring 
the illegal trade in ivory.
    Mr. Pallone. Isn't there still a sense that maybe certain 
CITES parties are trying to get around the opposition to an 
annual commercial ivory quote by just regularly submitting 
proposals for stockpile sales instead? Isn't there a danger of 
that happening?
    Mr. Manson.  Well, of course it is certainly possible that 
at the next COP there may be more proposals for the sale of 
ivory, but we will have to cross that bridge when we come to 
it.
    Mr. Pallone. My concern would be that if you start getting 
these stockpiles sales annually, they come to be almost the 
same thing as an annual quota.
    Mr. Manson.  Well, there is no such scheme in place at the 
present time, and we were very careful and we negotiated very 
firmly with the countries that were allowed the sales. Right up 
to the moments before the vote, Assistant Secretary Turner of 
the State Department and I had the ministers from the Southern 
African countries in private. They asked us a number of 
questions, and we put a number of questions to them, and we 
crafted a very careful proposal, and that is the proposal that 
passed.
    Mr. Pallone. I have to be honest and again. I expect you 
are going to say it is not the case, but there has also been 
some concern, because you mentioned trade, that on November 4, 
a few days after the CITES meeting started, the U.S. Trade 
Representative announced it was negotiating a new free trade 
agreement with five Southern African nations, including 
Botswana, Namibia, South Africa. And, of course, those three 
countries, you know, just happen to be the same three countries 
whose proposals to resume ivory trade--you know, we supported 
it just a week later. Is there any relationship between that? 
And I am sure you are going to tell me no, but I am sure you 
are aware of fact that there is some concern that that might be 
the case.
    Mr. Manson.  I can tell you that there was no relationship 
between the free trade agreements and the issue of the one-time 
sale of ivory. The discussions were conducted independently. 
The discussions were conducted by people who had no involvement 
in the other discussions whatsoever, and the issues never came 
up in the--I don't know about the free trade discussions, but 
certainly in the ivory discussions, the issue of the free trade 
agreements were never raised.
    Mr. Pallone. I appreciate that.
    You mentioned the Asian nations that you said you had some 
concerns about. Are they going to be able to import ivory as a 
result of this one-time sale, those same countries you had 
concerns about?
    Mr. Manson.  I will be specific about the countries I am 
talking about. We are mostly talking about Japan and China, and 
they have some serious deficiencies in their schemes for 
monitoring the illegal trade of ivory.
    Mr. Pallone. Will they be able to import?
    Mr. Manson.  It may be that some ivory from the one-time 
sales may find its way to China and Japan. That is one of the 
reasons we were very stern with China and Japan about improving 
their systems for monitoring the importation and trade of 
ivory.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Pombo.
    Mr. Pombo. Thank you.
    Just briefly, Mr. Secretary. I have had the opportunity to 
see the a number of the stockpiles the countries in question 
have, and they have a serial number that is imprinted on each 
piece of ivory. You can trace where they got it, where it came 
from, the method that it was obtained, and that is all legal 
ivory under CITES and under the laws of those sovereign 
nations. What they requested was a one-time sale of that 
legally obtained ivory to be sold and that money to be funneled 
back into elephant conservation and aid into areas where the 
elephants actually live.
    You have two very different management schemes in Africa. 
One has been successful. One, there have been increasing 
numbers. In fact, as you pointed out, in Botswana and a couple 
of other countries, they are actually over population. They 
have more elephants than what science tells us is the carrying 
capacity of those nations. The other has been much more 
problematic, and that particular country, Kenya, has had most 
of the poaching and most of the problems. I believe it can be 
directly traced back to the management scheme that those 
countries have. I believe that that is the biggest difference. 
But I know this will always be controversial.
    There are always a lot of questions that people have. I do 
appreciate a great deal the way that you and the rest of the 
delegation handled this. You guys actually sat down and talked 
to all of the range states. You worked your way through and 
didn't--and Mr. Pallone brought up an annual sale. And a lot of 
these countries wanted an annual sale. That was their proposal. 
That is not what was approved. It was a one-time sale of 
legally obtained stocks, and all of that money would be pumped 
back into elephant conservation and AIDS. I think you guys 
handled this extremely well, and I salute you for doing that.
    But I would like to move on to the issue of mahogany and 
the decisions that were made in Chile. Since that time there 
has been a number of questions that my office has fielded, and 
I guess the bottom line is that there is a big desire on the 
part of U.S. businesses and people here to work with you and 
the Administration in the implementation of this and how it is 
all going to play out, because they are obviously very worried, 
and they really don't know what is going to happen in terms of 
regulation.
    How do you intend on working with some of the end users in 
the U.S. on this to formulate how it is going to be handled 
here?
    Mr. Manson.  Let me say that I certainly appreciate the 
concern about the uncertainty that some of the end users and 
importers of mahogany have. Many of them have not been under 
this type of scheme before, and they are naturally curious and 
interested and concerned about it. I have met with some of the 
importers, and we have made a commitment to them that we will 
involve them along with other members of the public who are 
interested in helping to create an implementation scheme. We 
will engage in a very public process as we go down the road to 
implementation of this. We will use time-honored public input 
processes, scoping sessions, public meetings and other public 
devices to give them input. We will consider their input at 
every step of the process as we develop an implementation 
scheme, and we have got more than a year to do that. And it is 
not effective until November 2004--or 2003, I am sorry. We have 
got less than a year now to do it, and we are going to use that 
time very productively to engage the public, especially those 
who have an economic interest in this and those who are 
otherwise interested in this matter, to help us create the 
implementation scheme. We are simply not going to develop it 
behind closed doors and then impose it on the public.
    Mr. Pombo. As that meeting schedule is developed, I would 
appreciate if you would pass that along so I can notify these 
folks as to exactly how you are going to do it and what the 
schedule is for the meetings.
    Mr. Manson.  We will be very pleased to keep you and the 
rest of the Committee and all of the public informed of how 
that process will unfold.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pombo.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I would like to ask Judge Manson, since the establishment 
of this treaty in 1975 and the participation of some 160 
countries, approximately how many plant and animal species have 
been considered by the CITES for all these years? Does it seem 
to be in bundles, or do we have a congregate number of plants 
and species?
    Mr. Manson.  The number that have been considered is in the 
tens of thousands. The number that are actually affected is 
likewise in the ten of thousands. I think the total number is 
32,000. I would have to get to you an exact number, when you 
consider all the plant and animal species.
    Mr. Faleomavaega. That is a pretty hefty number for 160 
nations to review and reassess and see what the situation is. I 
am very curious of this. We have had some very serious 
problems; Japan, as you know over the past couple of years, 
with the International Whale Commission. Can you explain--does 
CITES give a better bearing on the control and conservation 
management of whales in this regard than the Commission itself? 
I suppose you want to work hand in hand with the Commission's 
efforts, but it seems that Japan is always seeking as much as 
possible--the idea of killing whales--and, of course, it is a 
special delicacy among the Japanese people to eat whales.
    Mr. Manson.  There is an agreement presently between CITES 
and the IWC, the bottom line of which is that at least until 
there is a revised management scheme in place on the part of 
the IWC for certain species, that CITES is not going to take 
any action that would undercut the IWC's management scheme. Dr. 
Lent may know a little bit more about that, but that is the 
essential bottom line. The Japanese, of course, wanted CITES to 
do an end run around the IWC process, as they frequently have, 
and to its credit, the parties declined to do that and stuck 
with the agreement between CITES and the IWC.
    Mr. Faleomavaega. Dr. Lent, any comments on that?
    Dr. Lent. CITES by its very nature can only monitor and 
some cases regulate or restrict international trade. The IWC 
has the tougher question of actual management schemes for 
whales which we are working on actively with the other 
countries.
    Mr. Faleomavaega. And every time Japan always comes up with 
the idea that the stats and the data provided are not accurate 
as far as they are concerned, so it should justify themselves 
in killing more whales. And every time IWC always comes up with 
the short end of the stick, I suppose, when there is this 
contention.
    You know, I eat sea cucumbers, but it is a delicacy among 
my people. What is the status of sea cucumbers? Is it an 
endangered species for consumption or commercial use or sales? 
I know the countries in Asia, this is a very popular item for 
consumption.
    Dr. Lent. It is a popular item for consumption and very 
much a delicacy. I think the concern has to do with its role in 
the ecosystem. As I said, it is not just the critter itself, 
but the fact that it plays the role of the earthworm of turning 
the soil over, the sand over in the bottom of the sea and 
sustaining the ecosystem in its entirety. But I understand the 
sea cucumbers are not in good shape, and their stocks are not 
in good shape. Your consumption alone is not making a 
difference.
    Mr. Faleomavaega. Couple of years ago we had a very 
controversial issues concerning sharks. As you know, shark fin 
soup is the most expensive soup in any restaurant in Asia. And 
we have gone through this that sharks are indiscriminately 
killed just for the sake of cutting off their fins and then 
just destroy the carcass. We passed legislation to put a little 
more teeth to this whole idea of preventing people from killing 
sharks, but the killing still goes on. Has CITES addressed this 
issue seriously in terms of exactly the amount of sharks we 
have out there, because the controversial issue of this problem 
is the accurate data in terms of how many sharks are out there.
    Dr. Lent. That is one of the good things about an Appendix 
II listing is we can get a better idea--to the extent these 
species are traded, once their product is on the market, we can 
get a better idea how much harvest is going on out there.
    One of our concerns is sharks, which is why we took it to 
the FAO and pushed for an international plan of action or 
national plans of actions--one of our concerns is that these 
species are not covered right now under any regional fishery 
management organization. The Atlantic Tuna Commission doesn't 
cover them except for data collection. Even there it is 
difficult to get recommendations on sharing data on shark 
bycatch. The Tuna Commission in the Pacific is in the process 
of negotiating its convention, renewing its convention, and 
trying to get sharks under that organization. It has been a 
tough go.
    The new convention in the Western Pacific I believe does 
cover sharks. That is the new MHLC, which you know plenty 
about.
    To the extent we can get these regional fishery management 
organizations to look at sharks, that is going to help us. So 
many of these sharks are highly migratory. We can't manage them 
alone in the U.S., and a lot of high seas, bycatch and finning 
going on--finning is illegal in the United States now, and we 
are hoping to set an example by taking that step under the 
guidance of Congress and working through the FAO as well.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and it is 
indeed an honor to be on this Subcommittee.
    I have a couple of questions. One is closer to home. I am 
the Congresswoman from Guam. But one, I would like to ask a few 
questions on the fish, if I could, Judge Manson. With the 
introduction of the proposal by Australia to list the Patagonia 
toothfish on Appendix II, a strong ally on global warming and 
Iraq, the U.S. had the opportunity to exert leadership in 
assisting their ally's effort to get this fish listed. What 
effort was exerted by the U.S. on Australia's behalf 
internationally to gain greater support from other countries 
for this proposal?
    Mr. Manson.  We spent a lot of time consulting with the 
Australians and the Chileans, who were on opposite sides of 
this particular issue. We felt that it was in the best 
interests of all concerned to broker a compromise in this 
particular case, and that is what we did. The real issue--the 
issue that Australia was really interested in was finding a way 
to improve the international monitoring of harvests of the 
Patagonian toothfish, and we found a way to do that without 
putting it on Appendix II. And the way we did that was the 
agreement is essentially, as Dr. Lent was describing earlier, 
that CITES countries will use the catch documentation schemes 
of the CCAMLR convention, and that expands the use of that 
catch documentation scheme from about 24, 25 countries to 160 
nations, and it accomplishes the goal of better monitoring of 
harvests of the Patagonian toothfish and does so without 
imposing the trade restrictions or any of the other regulatory 
aspects of CITES. So it is a good outcome for everybody.
    Ms. Bordallo. So all parties agreed?
    Mr. Manson. Absolutely. And we are quite proud of the fact 
that we are able to broker that type of agreement.
    Ms. Bordallo. Thank you very much.
    One other question I have has to do with fruit bats. I come 
from Guam, and the fruit bat feeds on fruits and is a delicacy. 
I am sure our Representative from Samoa knows about the fruit 
bats. But I was wondering if this has ever been listed on the 
CITES list or if we have ever discussed it in Fisheries. I am 
new, so I wouldn't know. But it is extinct on our island, and 
now we have to import the fruit bats from neighboring islands.
    Mr. Manson.  The fruit bat is--has kind of a split status. 
There are some species of fruit bat that are in Appendix II and 
some that are in Appendix I of CITES. So some have the most 
restrictive trade regulation, and some have a less restrictive 
trade.
    Ms. Bordallo. So we are listed.
    Mr. Manson.  They are.
    Mr. Gilchrest. Thank you very much, and welcome to the 
Subcommittee.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Gilchrest. I have a couple more questions, and some of 
us up here may have a few more questions.
    Dr. Lent, the Patagonian toothfish was proposed by 
Australia to be in Appendix II or Appendix I.
    Dr. Lent. II.
    Mr. Gilchrest. And who was in collaboration to collect that 
data to make that kind of a recommendation? Was the U.S. A part 
of that data collection? What other parties were a part of that 
group, and did the U.S. agree that the stock assessment of the 
Antarctic toothfish was such that it probably should have been 
listed, but because of the controversy, a compromise was 
struck? Did we agree with Australia that the stock is down?
    Dr. Lent. Thank you. My understanding is that when the 
delegation left for Chile, we were still undecided. And Judge 
Manson can provide more information on that. We were 
concerned--we are concerned about toothfish. We are concerned 
about its status.
    Mr. Gilchrest. Who was collecting the data to determine--
    Dr. Lent. Data and the science are currently conducted by 
CCAMLR.
    Mr. Gilchrest. So CCAMLR's conclusion was in agreement with 
Australia?
    Dr. Lent. Actually CCAMLR met shortly before CITES, and 
they passed a measure at their meeting urging that CITES take 
measures so that CITES members could use the CCAMLR 
documentation scheme. That was my understanding.
    Mr. Gilchrest. Did that take effect?
    Dr. Lent. That is indeed the compromise that ended up. So 
when the delegation got to the meeting, I wasn't there. There 
were a lot of discussions with U.S., Australia and Chile to 
talk about a compromise, and the compromise that was reached 
was that the catch documentation scheme would be used, endorsed 
and encouraged. CITES members would be encouraged to use it. 
Take it from the 24 members of CCAMLR to the 161 members of 
CITES so it becomes much more of a tool.
    The important thing about this toothfish, there is so much 
IUU fishing going on, that to the extent we can track its 
trade, and it is a heavily traded product, we will know how 
much fishing is going on.
    Mr. Gilchrest.  This is the Chilean sea bass?
    Dr.. Lent. Yes. Actually, we had a Fisheries bilateral with 
Chile shortly before the CITES meeting, and they were very 
concerned about the fact that the name Chilean is stamped on 
it. It was a great marketing trick a few years ago, but now it 
is giving Chile a bad name. They like to refer to it as 
toothfish.
    We estimate twice as much illegal harvest is going on as 
opposed to legal harvest. To the extent we can monitor the 
three main markets, which are U.S., EU and Japan, monitor the 
imports of toothfish, then we really know how much toothfish 
fishing is going on, and that contributes to the science in 
estimating total mortality that is actually going on.
    Mr. Gilchrest.  The CCAMLR's catch and document system for 
the Patagonian toothfish will come under that regime, and it 
will be the next CITES meeting in Thailand that will be 
discussed again in 2004?
    Dr.. Lent. That is my understanding.
    Judge Manson, do you want to elaborate on that?
    Mr. Manson. It very well likely may be discussed there. I 
don't know that we have seen any firm proposals on that as of 
yet; but I can't imagine it will not come up.
    Let me say that a lot of parties believe, as we do, that 
there are threats, potential threats, of overharvesting and 
illegal fishing that go on with the Patagonian toothfish. 
Whether or not that rises to the level of threat necessary that 
would qualify it for an Appendix II listing is another matter.
    Mr. Gilchrest. So there is not enough data to make that 
determination?
    Mr. Manson. I have not seen any conclusion about that, but 
I think what the outcome in Santiago did was put us in a 
position to better monitor those potential threats.
    Mr. Gilchrest. So there is no timeframe on this monitoring, 
but it falls within the same regime protocol system that any 
other species--if it is seen after a year that the Patagonian 
toothfish, under this catch document system, their stock is 
dropping, then other measures can be taken? If it is seen that 
stock is stable or rising, it will just continue under this 
catch document system?
    Mr. Manson. That is certainly one of the possible outcomes 
of the use of the catch documentation scheme.
    Mr. Gilchrest.  What is the range of this fish? Where is 
it?
    Mr. Manson. It is largely in Antarctic waters.
    Mr. Gilchrest.  Thank you. We will have to go down there on 
a boat.
    In the catch document system, is there any place or system 
for observers on fishing vessels?
    Dr.. Lent. I believe CCAMLR does have an observer program.
    Mr. Gilchrest.  Thank you.
    Mr. Pombo.
    Mr. Pombo. Just to follow up on the questions that the 
Chairman was asking, one of the reasons that this was 
controversial was that it was a species which was already 
regulated under an international fisheries body, and there was 
a great deal of concern amongst the member nations and the 
outside groups that CITES was pushing its way into regulating 
fish species that were already regulated under fisheries 
management schemes.
    Are you aware of any other species which have been proposed 
that were already regulated like this, Dr. Lent?
    Dr. Lent. The one that comes to mind is Atlantic bluefin 
tuna. There was a proposal to list it on Appendix II, and that 
did not happen. In fact, something similar to a catch 
documentation scheme was implemented by ICCAT, the regional 
fisheries management organization, the same type of 
information, how much fishing is actually going on as evidenced 
by trade, and ICCAT then changes their science and their data 
for landings and mortalities based on trade statistics, which 
ground truth the landing information. That is at least one 
example that I know of.
    Mr. Pombo. Is that a more proper way of dealing with this 
under these fisheries bodies, to monitor what is happening in 
that fishery?
    Dr. Lent. I guess it would depend on a case-by-case basis. 
In the case of Atlantic bluefin tuna, the countries that were 
fishing and the countries that were trading were all members of 
ICCAT, if I am not mistaken, or at least cooperating parties.
    In this case for toothfish, with all of the illegal fishing 
going on, there are a lot of non-CCAMLR members who might be 
affected by the encouragement by CITES to use the catch 
documentation scheme, so it packs a bigger wallop when it goes 
through CITES.
    If this cooperative approach works, we take the numbers of 
CITES and apply them to the catch documentation scheme of 
CCAMLR and their science and their annual stock assessment, and 
by just hooking up in that way, we are getting a bigger bang 
for the buck, so to speak.
    Mr. Pombo. Dr. Manson, we have the upcoming standing 
committee's meeting. I believe the agenda came out yesterday or 
today. Can you give us an idea what are some of the issues that 
are going to be on the table, and the standing committee is 
chaired by a member of your delegation, Ken Stansel, and he has 
done an outstanding job during the time he has been in that 
position. What are some of the major issues that are going to 
come up?
    Mr. Manson. The standing committee will meet in Geneva the 
week after Easter. The United States is the Chair of the 
standing committee, and Ken Stansel of the U.S. Fish and 
Wildlife Service occupies that chair. He has great confidence 
of all of the members of the standing committee and of the 
Conference of the Parties and the Secretariat as well. He has 
been an outstanding representative of the United States of 
America, and has done much to advance the cause of the United 
States in his position.
    A lot of the things that we do and a lot of our successes 
are due to Ken Stansel's work on the standing committee. One of 
the things that they are going to address there is the addition 
of NGO's as observers at standing committee meetings. 
Historically, the standing committee has not allowed NGO's in 
as observers. Of course they do participate as observers at the 
Conference of the Parties.
    The standing committee voted to allow NGO's in as observers 
at their 47th meeting at Santiago, but they need to adopt 
further rules of procedure with respect to that. The United 
States' position is in support of NGO participation in standing 
committee meetings.
    Another issue will be the decision on trade on African 
elephant ivory. The standing committee has to develop a process 
to ensure that the conditions are met. They have to develop 
terms of reference for implementing the decision. They have to 
ensure that the MIKE process, the monitoring of the illegal 
killing of elephants, is properly implemented, and they have to 
make other determinations necessary to allow the sale to go 
forward.
    Also, a very important aspect to be discussed at the 
standing committee meeting is revision of the MOU with the 
United Nations environmental program. They are the program 
which provides administrative support to the CITES Conference 
of the Parties. Other topics are a new MOU with FAO on marine 
species; the establishment of an export corridor working group; 
criteria for amendment of the Appendix, that is an extremely 
important issue; development of budget strategies, that is 
another issue that the United States is very concerned about as 
well. Those are some of the important issues that will be 
before the standing committee in Geneva during the month of 
April.
    Mr. Pombo. Mr. Chairman, thank you.
    Mr. Gilchrest.  Thank you, Mr. Pombo.
    Mr. Pallone, any more questions?
    Mr. Pallone. Mr. Chairman, I wanted to ask a question about 
mahogany because I know that the United States has a history of 
supporting Appendix II protection for bigleaf mahogany that 
goes back more than 10 years. Despite that, the Administration 
seemed to have a hard time making up its mind about this issue 
when it came up at the COP12, and I know that caused concern 
amongst our allies that were looking for our support since they 
had it for a number of years.
    I wondered why the Administration delayed so long in 
deciding to support this listing when, based on our past policy 
and statements, it should have been a no-brainer. Why did we go 
into it not taking a position and basically end up supporting 
it at the end, the way I understand it?
    Mr. Manson. One thing that has not been understood well is 
the issue of undecided positions that we went to Santiago with. 
We went to Santiago with a number of officially undecided 
positions, of which mahogany was just one. It was not a 
question of having a difficult time making our minds up. We had 
a very specific strategy with respect to every issue as to 
which we were officially undecided. We had a set of 
instructions; we had a set of protocols that we would go 
through.
    With respect to mahogany, and let me say with respect to a 
number of the issues for which we were officially undecided, 
part of that strategy was to enable us to play the role that we 
played in a number of the issues; that is, one of being able to 
be the honest broker of consensus solutions, and that was 
certainly true on the mahogany issue as well.
    Having an officially undecided position gave us entree to a 
number of parties that if we had a hard-and-fast position would 
not otherwise speak to us. We know that from experience over a 
number of years that that would be the case. So we went down 
there officially undecided on mahogany, not literally undecided 
on mahogany, with the notion that we could broker a consensus 
among the range states. It gave us the ability to speak to all 
of the range states, which we did.
    And I have to say that the mahogany situation was one of 
the most frustrating for me personally because we talked to 
every single one of the range states, some of which favored the 
Appendix II listing for particular reasons, some of which, like 
Bolivia and Brazil, objected to the Appendix II listing. We 
spoke to them individually and collectively. We had one 
particularly frustrating day where we had all of the range 
states at a luncheon with the idea that they would all talk to 
each other and develop consensus solutions for the protection 
of mahogany while allowing trade to go forward.
    Mr. Pallone. I understand what you are saying, but there is 
always the danger that the countries that expected us to be 
supportive of the listing may have misunderstood what we were 
saying. Did those countries that had traditionally supported 
Appendix II listing know that we were sort of keeping quiet to 
the end, or was that part of the strategy, too? As a country 
that has always relied on the U.S.'s support, and if all of a 
sudden the United States is taking a neutral position, that can 
have a counterproductive impact, too.
    Mr. Manson. I think it was clear that the role that we were 
playing was one that was trying to bring folks together on a 
consensus approach. I think that that was clear as the 
processes unfolded. Ultimately we didn't reach that consensus, 
and ultimately we decided it was in the best interests of the 
United States to vote for the Appendix II listing.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. Mr. Chairman, I want to say to my 
colleague from Guam that we have passed very strict legislation 
in Samoa to prohibit the killing of bats, or we call it flying 
foxes.
    I remember in Guam they were selling flying foxes at $30 a 
pop. I hope after we export some flying foxes to Guam, please 
advise the local legislature of Guam to pass strict laws not to 
kill any more flying foxes.
    I am just curious, Dr. Manson, on the activities of CITES. 
Does CITES have an enforcement arm in terms of seeing that 
countries comply with its dictum?
    Mr. Manson. There are no CITES police, if you will, in the 
sense that there is no international police force that goes 
around and acts in that kind of capacity. However, the 
enforcement mechanisms of CITES are like the enforcement 
mechanisms of other international trade agreements in that it 
relies upon the good faith of all of the parties to act in 
accordance with the obligations to which they have agreed, and 
to enforce through their domestic legislation the trade 
restrictions or prohibitions that accompany the various levels 
of listing in CITES.
    Mr. Faleomavaega. So countries tell on other countries that 
are not adhering to the policy?
    Mr. Manson. Right. If something is imported without the 
proper documentation, in our case it is incumbent upon the USDA 
or the U.S. Fish and Wildlife Service to not let it into the 
country.
    Mr. Faleomavaega. Dr. Manson, you mentioned there are some 
32,000 species of plants and animals that have come under the 
purview of CITES.
    Mr. Manson. I don't know that is the exact number.
    Mr. Faleomavaega. Approximately.
    Do we have some kind of a data base which indicates which 
species of plants and animals come under Appendix I, II and III 
whose origin comes from our country?
    Mr. Manson. Yes, we do.
    Mr. Faleomavaega. Do you have any idea what percentage 
comes from us alone?
    Mr. Manson. I don't know that as we sit here. If you are 
interested, we can provide it.
    Mr. Faleomavaega. Mr. Chairman, I would be interested to 
have that made part of the record.
    Mr. Gilchrest.  Without objection, so ordered.
    Mr. Faleomavaega. How does CITES, with the important work 
that they do, relate to our own enactment of the Endangered 
Species Act? Are there conflicts between the two? I guess your 
role is as the enforcer of the Endangered Species Act?
    Mr. Manson. The Endangered Species Act specifically 
provides for enforcement of CITES, but they are fundamentally 
different. They have different purposes, and they are designed 
to be enforced in different ways and administered in different 
ways. There are species that are listed under our Endangered 
Species Act which are not CITES species. There are CITES 
species which are not listed under our Endangered Species Act, 
and then there are some that are both. But they have 
fundamentally different purposes, and they act in very 
different ways.
    Mr. Faleomavaega. I would like to pose a question to Dr. 
Lent.
    Again, Mr. Chairman, it would be irresponsible if I did not 
express my congratulations for your continuing as the Chairman 
of this important Subcommittee; and more importantly, the 
legislation that we passed in the last Congress to increase the 
authorization of our National Sea Grant Program, and I hope 
that we will work closely with the Appropriations Committee to 
increase the level of funding for this important program.
    Dr. Lent, I realize that this question and concern is not 
related to CITES, but I am always curious, we have just 
recently built new NOAA research vessels, and I would like to 
propose a proposal, why Dr. Sylvia Earle has not been 
considered seriously to have a research vessel named after her. 
Has NOAA ever taken that under consideration? I think she 
richly deserves the honor for the contributions she has made 
over the years as one of our foremost marine biologists in the 
world. Can you take that message back, and maybe we can sign a 
petition on a bipartisan basis that Sylvia Earle should be 
given full recognition and have a research vessel named after 
her?
    Mr. Gilchrest.  Absolutely, and I can tell Members that I 
have two canoes, and one of them plies the placid waters of the 
Sassafras River, and I refer to that canoe as Ms. Earle's 
research vessel.
    Mr. Faleomavaega. Mr. Chairman, I want to say that we were 
privileged to host her when she visited our island. What a 
dynamic lady. She still manages to scuba dive, just to show not 
only her heartiness, but also a very special person to those of 
us who deal with fishery issues.
    Thank you.
    Ms. Bordallo. Mr. Chairman, just one last question to 
follow up on the question of the gentleman from American Samoa 
about the monitoring.
    I am curious with this many species on your listings, you 
said that you depended, Judge Manson, on the respective 
governments to be on the lookout, and I was wondering if you 
find any of the nations, countries, islands, territories that 
are not adhering to the rules and regulations of the CITES, 
then what do you do? What do you do? Do you step in, and in 
what manner?
    Mr. Manson. If someone is not adhering to the CITES 
protocols, then ultimately whatever species it is--for example, 
if it is a single species or in general--they may find 
themselves isolated from an international trade perspective.
    Ms. Bordallo. So that is the ultimate, they are reported?
    Mr. Manson. Right.
    Ms. Bordallo. Thank you.
    Mr. Chairman, I, too, would like to congratulate you. It is 
an honor to be on the Committee, and I know that Guam and the 
other Pacific islands will have a lot to say at your meetings.
    Mr. Gilchrest.  Thank you. I will have to say that I was 
congratulated on this continuing Chairmanship of the 
Subcommittee while at a fishery and management meeting in 
Gloucester, and I learned how to pronounce it while I was 
there, and during that period of time my membership as a Member 
of Congress, as I described it to the person that was 
congratulating me, describing it was like having irritable 
bowel syndrome. So when we congratulate each other on these 
appointments, we take the full ramifications of its 
jurisdiction into consideration.
    Judge Manson and Dr. Lent, Mr. Pallone asked me if we could 
have some follow-up questions. Over the next few days we will 
send them to you, and continue our conversation about this most 
important international agreement and treaty, CITES.
    Thank you both very much for coming here today. We look 
forward to working with you in the future. The hearing is 
adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
